No. 19-631
IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,
v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.,

Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amici Curiae Public Citizen and Public Citizen Foundation in Support of
Petitioners contains 7,916 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on March 2, 2020.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

